No. ____________

IN THE

KELLEY KELLER,

Petitioner,
v.
CHRISTIAN PFEIFFER, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

APPENDIX
CUAUHTEMOC ORTEGA
Federal Public Defender
ANDREA A. YAMSUAN*
Andrea_Yamsuan@fd.org
Deputy Federal Public Defender
321 East 2nd Street
Los Angeles, California 90012-4202
Telephone: (213) 894-2854
Facsimile: (213) 894-0081
Attorneys for Petitioner
*Counsel of Record

APPENDIX INDEX
A. Ninth Circuit Order Granting Denying Petition for Rehearing,
February 8, 2021 . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Pet. App. 1
B. Ninth Circuit Memorandum of Decision,
September 9, 2020 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Pet. App. 2-9
C. Ninth Circuit Order Granting COA,
February 26, 2016 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Pet. App. 10-11
D. District Court Order Denying COA,
April 26, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Pet. App. 12-14
E. District Court Judgment,
April 26, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . Pet. App. 15
F. District Court Order Accepting Report and Recommendation,
April 26, 2018 . . . . . . .. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .Pet. App. 16-18
G. Report and Recommendation of Magistrate Judge,
February 2, 2018 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . . . Pet. App. 19-35
H. California Supreme Court Summary Denial of Petition,
November 22, 2016 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . . . . . . Pet. App. 36

i

Case: 18-55700, 02/08/2021, ID: 11995479, DktEntry: 44, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
FEB 8 2021
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KELLEY KELLER,

No.

Petitioner-Appellant,
v.

18-55700

D.C. No.
2:16-cv-09197-AG-SP
Central District of California,
Los Angeles

CHRISTIAN PFEIFFER, Warden,
ORDER
Respondent-Appellee.
Before: CALLAHAN and BUMATAY, Circuit Judges, and M. WATSON,*
District Judge.
Appellant’s petition for rehearing is denied.

*

The Honorable Michael H. Watson, United States District Judge for
the Southern District of Ohio, sitting by designation.
Pet. App. A 1

(1 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-1, Page 1 of 4

FILED

NOT FOR PUBLICATION

SEP 9 2020

UNITED STATES COURT OF APPEALS

MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
KELLEY KELLER,

No.

Petitioner-Appellant,

U.S. COURT OF APPEALS

18-55700

D.C. No.
2:16-cv-09197-AG-SP

v.
MEMORANDUM*

CHRISTIAN PFEIFFER, Warden,
Respondent-Appellee.

Appeal from the United States District Court
for the Central District of California
Andrew J. Guilford, District Judge, Presiding
Argued and Submitted August 10, 2020
Pasadena, California
Before: CALLAHAN and BUMATAY, Circuit Judges, and M. WATSON,**
District Judge.
Kelly Keller appeals from the district court’s dismissal of his federal habeas
appeal as untimely under the one-year time limit in the Antiterrorism and
Effective Death Penalty Act of 1996 (AEDPA), 28 U.S.C. § 2244. The district

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The Honorable Michael H. Watson, United States District Judge for
the Southern District of Ohio, sitting by designation.
Pet. App. B 2

(2 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-1, Page 2 of 4

court ruled that although Keller was entitled to “gap tolling” for the periods of time
between the filings of his post-conviction petitions in the California courts, he was
not entitled to equitable tolling for the passage of time after the California Supreme
Court denied his post-conviction petition. We affirm.
We review de novo the dismissal of a habeas petition as untimely, and
review findings of fact made by the district court for clear error. Stewart v. Cate,
757 F.3d 929, 934 (9th Cir. 2014); Ramirez v. Yates, 571 F.3d 993, 997 (9th Cir.
2009). We review a district court’s determination not to hold an evidentiary
hearing for abuse of discretion. Stewart, 757 F.3d at 934.
The Supreme Court has held that AEDPA’s statutory limitation periods may
be tolled for equitable reasons. Holland v. Florida, 560 U.S. 631, 645 (2010).
“Generally, a litigant seeking equitable tolling bears the burden of establishing two
elements: (1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way.” Pace v. DiGuglielmo, 544 U.S. 408,
418 (2005). We recently explained that these are two distinct requirements. Smith
v. Davis, 953 F.3d 582, 591 (9th Cir. 2020) (en banc) (“[I]f an extraordinary
circumstance is not the cause of a litigant’s untimely filing, then there is nothing
for equity to address.”). In Smith, we disapproved of an application for equitable
tolling “where a litigant has not diligently pursued his rights before, during, and
after the existence of an extraordinary circumstance.” Id. at 598. We explained

2

Pet. App. B 3

(3 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-1, Page 3 of 4

that a litigant “must show that he has been reasonably diligent in pursuing his
rights not only while an impediment to filing caused by an extraordinary
circumstance existed, but before and after as well, up to the time of filing his claim
in federal court.” Id. at 598-99.
Here, the district court first granted Keller “gap tolling” for the periods of
time between the filings of his post-conviction petitions in the California courts,
without which AEDPA’s time limitation would have run before Keller filed his
post-conviction petition with the California Supreme Court. The district court also
recognized that the days it took for the California Supreme Court’s decision to
reach Keller made it impossible for him to file a timely federal habeas petition.
However, it reasoned that “[t]he Petition was late because petitioner waited over a
year following the California Supreme Court’s denial of his petition for review on
August 27, 2014 before he constructively filed his first state habeas petition in the
Superior Court on November 24, 2015, the day before the AEDPA limitation
period expired.” The district court determined that “[i]t is during that earlier time,
while the AEDPA limitation period was running, that petitioner needs equitable
tolling in order for [the] instant Petition to be timely, but petitioner has failed to
show . . . extraordinary circumstances during that period prevented him from
timely filing.”

3

Pet. App. B 4

(4 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-1, Page 4 of 4

On this record, Keller has not shown that the district court clearly erred in
determining that he did not act diligently. The district court considered Keller’s
actions during the relevant time period, November 2014 to November 2015. It
noted that Keller waited two years before requesting additional records, waited six
months before filing his state habeas petition, and filed all of his petitions without
the additional records he sought. In light of the district court’s careful
consideration of Keller’s actions, Keller has not shown either that the district court
erred in dismissing his federal habeas petition as untimely or that the district court
abused its discretion in declining to hold an evidentiary hearing.
The district court’s order of dismissal is AFFIRMED.

4

Pet. App. B 5

(5 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-2, Page 1 of 4

United States Court of Appeals for the Ninth Circuit
Office of the Clerk
95 Seventh Street
San Francisco, CA 94103
Information Regarding Judgment and Post-Judgment Proceedings
Judgment
•
This Court has filed and entered the attached judgment in your case.
Fed. R. App. P. 36. Please note the filed date on the attached
decision because all of the dates described below run from that date,
not from the date you receive this notice.
Mandate (Fed. R. App. P. 41; 9th Cir. R. 41-1 & -2)
•
The mandate will issue 7 days after the expiration of the time for
filing a petition for rehearing or 7 days from the denial of a petition
for rehearing, unless the Court directs otherwise. To file a motion to
stay the mandate, file it electronically via the appellate ECF system
or, if you are a pro se litigant or an attorney with an exemption from
using appellate ECF, file one original motion on paper.
Petition for Panel Rehearing (Fed. R. App. P. 40; 9th Cir. R. 40-1)
Petition for Rehearing En Banc (Fed. R. App. P. 35; 9th Cir. R. 35-1 to -3)
(1)

A.
•

•

B.
•

Purpose (Panel Rehearing):
A party should seek panel rehearing only if one or more of the following
grounds exist:
►
A material point of fact or law was overlooked in the decision;
►
A change in the law occurred after the case was submitted which
appears to have been overlooked by the panel; or
►
An apparent conflict with another decision of the Court was not
addressed in the opinion.
Do not file a petition for panel rehearing merely to reargue the case.
Purpose (Rehearing En Banc)
A party should seek en banc rehearing only if one or more of the following
grounds exist:

Post Judgment Form - Rev. 12/2018

1

Pet. App. B 6

(6 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-2, Page 2 of 4
►
►
►

Consideration by the full Court is necessary to secure or maintain
uniformity of the Court’s decisions; or
The proceeding involves a question of exceptional importance; or
The opinion directly conflicts with an existing opinion by another
court of appeals or the Supreme Court and substantially affects a
rule of national application in which there is an overriding need for
national uniformity.

(2)

Deadlines for Filing:
•
A petition for rehearing may be filed within 14 days after entry of
judgment. Fed. R. App. P. 40(a)(1).
•
If the United States or an agency or officer thereof is a party in a civil case,
the time for filing a petition for rehearing is 45 days after entry of judgment.
Fed. R. App. P. 40(a)(1).
•
If the mandate has issued, the petition for rehearing should be
accompanied by a motion to recall the mandate.
•
See Advisory Note to 9th Cir. R. 40-1 (petitions must be received on the
due date).
•
An order to publish a previously unpublished memorandum disposition
extends the time to file a petition for rehearing to 14 days after the date of
the order of publication or, in all civil cases in which the United States or an
agency or officer thereof is a party, 45 days after the date of the order of
publication. 9th Cir. R. 40-2.

(3)

Statement of Counsel
•
A petition should contain an introduction stating that, in counsel’s
judgment, one or more of the situations described in the “purpose” section
above exist. The points to be raised must be stated clearly.

(4)

Form & Number of Copies (9th Cir. R. 40-1; Fed. R. App. P. 32(c)(2))
•
The petition shall not exceed 15 pages unless it complies with the
alternative length limitations of 4,200 words or 390 lines of text.
•
The petition must be accompanied by a copy of the panel’s decision being
challenged.
•
An answer, when ordered by the Court, shall comply with the same length
limitations as the petition.
•
If a pro se litigant elects to file a form brief pursuant to Circuit Rule 28-1, a
petition for panel rehearing or for rehearing en banc need not comply with
Fed. R. App. P. 32.

Post Judgment Form - Rev. 12/2018

2

Pet. App. B 7

(7 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-2, Page 3 of 4

•

•

The petition or answer must be accompanied by a Certificate of Compliance
found at Form 11, available on our website at www.ca9.uscourts.gov under
Forms.
You may file a petition electronically via the appellate ECF system. No paper copies are
required unless the Court orders otherwise. If you are a pro se litigant or an attorney
exempted from using the appellate ECF system, file one original petition on paper. No
additional paper copies are required unless the Court orders otherwise.

Bill of Costs (Fed. R. App. P. 39, 9th Cir. R. 39-1)
•
The Bill of Costs must be filed within 14 days after entry of judgment.
•
See Form 10 for additional information, available on our website at
www.ca9.uscourts.gov under Forms.
Attorneys Fees
•
Ninth Circuit Rule 39-1 describes the content and due dates for attorneys fees
applications.
•
All relevant forms are available on our website at www.ca9.uscourts.gov under Forms
or by telephoning (415) 355-7806.
Petition for a Writ of Certiorari
•
Please refer to the Rules of the United States Supreme Court at
www.supremecourt.gov
Counsel Listing in Published Opinions
•
Please check counsel listing on the attached decision.
•
If there are any errors in a published opinion, please send a letter in writing
within 10 days to:
►
Thomson Reuters; 610 Opperman Drive; PO Box 64526; Eagan, MN 55123
(Attn: Jean Green, Senior Publications Coordinator);
►
and electronically file a copy of the letter via the appellate ECF system by using
“File Correspondence to Court,” or if you are an attorney exempted from using
the appellate ECF system, mail the Court one copy of the letter.

Post Judgment Form - Rev. 12/2018

3

Pet. App. B 8

(8 of 8)
Case: 18-55700, 09/09/2020, ID: 11817078, DktEntry: 42-2, Page 4 of 4

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
Form 10. Bill of Costs
Instructions for this form: http://www.ca9.uscourts.gov/forms/form10instructions.pdf

9th Cir. Case Number(s)
Case Name
The Clerk is requested to award costs to (party name(s)):

I swear under penalty of perjury that the copies for which costs are requested were
actually and necessarily produced, and that the requested costs were actually
expended.
Signature

Date

(use “s/[typed name]” to sign electronically-filed documents)
REQUESTED
(each column must be completed)

COST TAXABLE
No. of
Copies

DOCUMENTS / FEE PAID
Excerpts of Record*

Pages per
Cost per Page
Copy

TOTAL
COST

$

$

$

$

Reply Brief / Cross-Appeal Reply Brief

$

$

Supplemental Brief(s)

$

$

Principal Brief(s) (Opening Brief; Answering
Brief; 1st, 2nd , and/or 3rd Brief on Cross-Appeal;
Intervenor Brief)

Petition for Review Docket Fee / Petition for Writ of Mandamus Docket Fee

$

TOTAL: $
*Example: Calculate 4 copies of 3 volumes of excerpts of record that total 500 pages [Vol. 1 (10 pgs.) +
Vol. 2 (250 pgs.) + Vol. 3 (240 pgs.)] as:
No. of Copies: 4; Pages per Copy: 500; Cost per Page: $.10 (or actual cost IF less than $.10);
TOTAL: 4 x 500 x $.10 = $200.
Feedback or questions about this form? Email us at forms@ca9.uscourts.gov

Form 10

Pet. App. B 9

Rev. 12/01/2018

Case: 18-55700, 01/25/2019, ID: 11167244, DktEntry: 3, Page 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
JAN 25 2019
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

KELLEY KELLER,

No.

Petitioner-Appellant,
v.
WILLIAM MUNIZ, Warden,

18-55700

D.C. No. 2:16-cv-09197-AG-SP
Central District of California,
Los Angeles
ORDER

Respondent-Appellee.
Before:

CANBY and GRABER, Circuit Judges.

After reviewing the underlying petition and concluding that it states at least
one federal constitutional claim debatable among jurists of reason, namely whether
the trial court erred by instructing the jury regarding continued deliberations, and
by failing to hold a hearing on juror misconduct, we grant the request for a
certificate of appealability with respect to the following issue: whether appellant’s
28 U.S.C. § 2254 petition was timely filed, including whether appellant is entitled
to equitable tolling. See 28 U.S.C. § 2253(c)(3); Gonzalez v. Thaler, 565 U.S. 134
(2012); Slack v. McDaniel, 529 U.S. 473, 483-85 (2000); Grant v. Swarthout, 862
F.3d 914 (9th Cir. 2017); Lambright v. Stewart, 220 F.3d 1022, 1026 (9th Cir.
2000); see also 9th Cir. R. 22-1(e).
Appellant is granted leave to proceed in forma pauperis based on the
application attached to his 28 U.S.C. § 2254 petition, filed in the district court on

Pet. App. C 10

Case: 18-55700, 01/25/2019, ID: 11167244, DktEntry: 3, Page 2 of 2

December 13, 2016. The Clerk shall change the docket to reflect appellant’s in
forma pauperis status.
Counsel is appointed sua sponte for purposes of this appeal. See 18 U.S.C.
§ 3006A(a)(2)(B); Weygandt v. Look, 718 F.2d 952, 954 (9th Cir. 1983). Counsel
will be appointed by separate order.
If appellant does not wish to have appointed counsel, appellant shall file a
motion asking to proceed pro se within 14 days of the date of this order.
The Clerk shall electronically serve this order on the appointing authority for
the Central District of California, who will locate appointed counsel. The
appointing authority shall send notification of the name, address, and telephone
number of appointed counsel to the Clerk of this court at
counselappointments@ca9.uscourts.gov within 14 days of locating counsel.
The opening brief is due May 28, 2019; the answering brief is due June 27,
2019; the optional reply brief is due within 21 days after service of the answering
brief.
The Clerk shall serve on appellant a copy of the “After Opening a Case Counseled Cases” document.
If William Muniz is no longer the appropriate appellee in this case, counsel
for appellee shall notify this court by letter of the appropriate substitute party
within 21 days of the filing date of this order. See Fed. R. App. P. 43(c).

2

Pet. App. C 11

18-55700

Case 2:16-cv-09197-AG-SP Document 28 Filed 04/26/18 Page 1 of 3 Page ID #:2536

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

KELLEY KELLER,
Petitioner,

12
v.

13
14

WILLIAM MUNIZ, Warden,

15

Respondent.
__________________________

16
17

) Case No. CV 16-9197-AG (SP)
)
)
) ORDER DENYING A CERTIFICATE
) OF APPEALABILITY
)
)
)
)
)

Rule 11 of the Rules Governing Section 2254 Cases in the United States

18 District Courts reads as follows:
19

(a)

Certificate of Appealability. The district court must

20

issue or deny a certificate of appealability when it enters a final order

21

adverse to the applicant. Before entering the final order, the court

22

may direct the parties to submit arguments on whether a certificate

23

should issue. If the court issues a certificate, the court must state the

24

specific issue or issues that satisfy the showing required by 28 U.S.C.

25

§ 2253(c)(2). If the court denies a certificate, the parties may not

26

appeal the denial but may seek a certificate from the court of appeals

27

under Federal Rule of Appellate Procedure 22. A motion to

28

reconsider a denial does not extend the time to appeal.
1
Pet. App. D 12

Case 2:16-cv-09197-AG-SP Document 28 Filed 04/26/18 Page 2 of 3 Page ID #:2537

1

(b)

Time to Appeal. Federal Rule of Appellate Procedure

2

4(a) governs the time to appeal an order entered under these rules. A

3

timely notice of appeal must be filed even if the district court issues a

4

certificate of appealability.

5
6

Under 28 U.S.C. § 2253(c)(2), a Certificate of Appealability may issue “only

7 if the applicant has made a substantial showing of the denial of a constitutional
8 right.” The Supreme Court has held that this standard means a showing that
9 “reasonable jurists could debate whether (or, for that matter, agree that) the petition
10 should have been resolved in a different manner or that the issues presented were
11 adequate to deserve encouragement to proceed further.” Slack v. McDaniel, 529
12 U.S. 473, 483-84, 120 S. Ct. 1595, 146 L. Ed. 2d 542 (2000) (internal quotation
13 marks omitted, citation omitted).
14

Two showings are required “[w]hen the district court denies a habeas

15 petition on procedural grounds without reaching the prisoner’s underlying
16 constitutional claim.” Slack, 529 U.S. at 484. In addition to showing that “jurists
17 of reason would find it debatable whether the petition states a valid claim of the
18 denial of a constitutional right,” the petitioner must also make a showing that
19 “jurists of reason would find it debatable whether the district court was correct in
20 its procedural ruling.” Id. As the Supreme Court further explained:
21

Section 2253 mandates that both showings be made before the court

22

of appeals may entertain the appeal. Each component of the § 2253(c)

23

showing is part of a threshold inquiry, and a court may find that it can

24

dispose of the application in a fair and prompt manner if it proceeds

25

first to resolve the issue whose answer is more apparent from the

26

record and arguments.

27 Id. at 485.
28

Here, the Court has denied the Petition because it is untimely. After duly
2
Pet. App. D 13

Case 2:16-cv-09197-AG-SP Document 28 Filed 04/26/18 Page 3 of 3 Page ID #:2538

1 considering petitioner’s various contentions in support of his argument that the
2 Petition is timely or that he is entitled to additional tolling, including in his
3 objections to the Report and Recommendation, the Court finds that petitioner has
4 failed to make the requisite showing that “jurists of reason would find it debatable
5 whether the district court was correct in its procedural ruling.”
6

Accordingly, a Certificate of Appealability is denied in this case.

7
8 Dated: 4/26/18
9
10

_______________________________

11

HONORABLE ANDREW J. GUILFORD
UNITED STATES DISTRICT JUDGE

12
13 Presented by:
14

_________________________
15 Sheri Pym
United States Magistrate Judge
16
17
18
19
20
21
22
23
24
25
26
27
28
3
Pet. App. D 14

Case 2:16-cv-09197-AG-SP Document 27 Filed 04/26/18 Page 1 of 1 Page ID #:2535

1
2

JS-6

3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

KELLEY KELLER,
Petitioner,

12
13

v.

14

WILLIAM MUNIZ, Warden,

15

Respondent.
__________________________

16
17

) Case No. CV 16-9197-AG (SP)
)
)
)
)
JUDGMENT
)
)
)
)
)

Pursuant to the Order Accepting Findings and Recommendation of United

18 States Magistrate Judge,
19

IT IS HEREBY ADJUDGED that the Petition is denied and this action is

20 dismissed with prejudice.
21
22 Dated: 4/26/18
23
24
25

_______________________________
HONORABLE ANDREW J. GUILFORD
UNITED STATES DISTRICT JUDGE

26
27
28

Pet. App. E 15

Case 2:16-cv-09197-AG-SP Document 26 Filed 04/26/18 Page 1 of 3 Page ID #:2532

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11

KELLEY KELLER,

12
13
14
15
16

Petitioner,
v.
WILLIAM MUNIZ, Warden,
Respondent.
___________________________

)
)
)
)
)
)
)
)
)
)
)

Case No. CV 16-9197-AG (SP)
ORDER ACCEPTING FINDINGS AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE

17
18

Pursuant to 28 U.S.C. § 636, the Court has reviewed the Petition, records on

19 file, and the Report and Recommendation of the United States Magistrate Judge.
20 Further, the Court has engaged in a de novo review of those portions of the Report to
21 which petitioner has objected. The Court accepts the findings and recommendation
22 of the Magistrate Judge.
23

In doing so, the Court notes petitioner raises a new argument for equitable

24 tolling in his Objections: that being mentally ill and a layman at law, petitioner had
25 to rely on another inmate for assistance in preparing his petitions, and due to other
26 cases the inmate was working on petitioner was separated from both the inmate and
27 his legal materials from January 2015 through late December 2015. Objections at
28 12. Petitioner’s lay status is not itself an extraordinary circumstance. See Rasberry

Pet. App. F 16

Case 2:16-cv-09197-AG-SP Document 26 Filed 04/26/18 Page 2 of 3 Page ID #:2533

1 v. Garcia, 448 F.3d 1150, 1154 (9th Cir. 2006) (holding “a pro se petitioner’s lack
2 of legal sophistication is not, by itself, an extraordinary circumstance warranting
3 equitable tolling”). And that petitioner chose to seek aid from another inmate who
4 apparently was not able to work on his petitions in a prompt fashion was a
5 circumstance of petitioner’s own creation that likewise does not warrant equitable
6 tolling. See Chaffer v. Prosper, 592 F.3d 1046, 1049 (9th Cir. 2010) (per curiam)
7 (finding petitioner’s “reliance on helpers who were transferred or too busy to attend
8 to his petitions” to be “hardly extraordinary given the vicissitudes of prison life,”
9 and not a circumstance that “made it ‘impossible’ for him to file on time”; and
10 petitioner “‘entrusted [his inmate law clerk] with his legal documents at his peril’”)
11 (citations omitted). Indeed, petitioner acknowledges that even during this period
12 when he asserts he was separated from his legal materials and still waiting for
13 assistance from the other inmate, he was nonetheless able to file his first state habeas
14 petition in November 2015. See Objections at 13. Thus, petitioner has shown no
15 causal connection between his delay in filing and his reliance on and transfer of his
16 files to another inmate, as required for equitable tolling. See Bryant v. Arizona Att’y
17 Gen., 499 F.3d 1056, 1060 (9th Cir. 2007).
18

Petitioner also has shown no causal connection between his delay in filing and

19 any mental illness. The Ninth Circuit has established a two-part test a petitioner
20 must meet in order to establish a basis for equitable tolling arising from a mental
21 illness. Bills v. Clark, 628 F.3d 1092, 1099-1100 (9th Cir. 2010). First, the illness
22 must be shown to be an extraordinary circumstance beyond his control, which
23 requires that either the petitioner was unable “rationally or factually to personally
24 understand the need to timely file,” or was unable “personally to prepare a habeas
25 petition and effectuate its filing.” Id. Second, the petitioner must show diligence in
26 pursuing claims “to the extent he could understand them, but that the mental
27 impairment made it impossible to meet the filing deadline under the totality of the
28 circumstances.” Id. at 1100. Petitioner here does not contend his mental health
2
Pet. App. F 17

Case 2:16-cv-09197-AG-SP Document 26 Filed 04/26/18 Page 3 of 3 Page ID #:2534

1 rendered him unable to understand the need to timely file or to prepare a filing, and
2 the record is inconsistent with any such contention.
3

IT IS THEREFORE ORDERED that respondent’s Motion to Dismiss (docket

4 no. 12) is granted, and Judgment will be entered denying the Petition and dismissing
5 this action with prejudice.
6
7
8 DATED: 4/26/18
9

_________________________________
HONORABLE ANDREW J. GUILFORD
UNITED STATES DISTRICT JUDGE

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
3
Pet. App. F 18

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 1 of 17 Page ID #:2234

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

CENTRAL DISTRICT OF CALIFORNIA

10
11 KELLEY KELLER,
12
13
14
15
16

Petitioner,
v.
WILLIAM MUNIZ, Warden,
Respondent.

17

)
)
)
)
)
)
)
)
)
)
)
)

Case No. CV 16-9197-AG (SP)
REPORT AND
RECOMMENDATION OF UNITED
STATES MAGISTRATE JUDGE

18
19

This Report and Recommendation is submitted to the Honorable Andrew J.

20 Guilford, United States District Judge, pursuant to the provisions of 28 U.S.C.
21 § 636 and General Order 05-07 of the United States District Court for the Central
22 District of California.
23

I.

24

INTRODUCTION

25

On December 1, 2016, petitioner Kelley Keller, a California state prisoner

26 proceeding pro se, constructively filed a Petition for Writ of Habeas Corpus by a
27
28
1
Pet. App. G 19

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 2 of 17 Page ID #:2235

1 Person in State Custody (“Petition”).1 Petitioner raises fourteen claims for relief
2 from his 2012 convictions in Los Angeles County Superior Court for murder,
3 attempted murder, assault with a firearm, evading a police officer causing death,
4 possession of a firearm, and resisting an executive officer.
5

On March 9, 2017, respondent filed a Motion to Dismiss the Petition

6 (“MTD”), asserting that the Petition is barred by the one-year statute of limitations
7 set forth in the Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”),
8 28 U.S.C. § 2244(d)(1). Petitioner filed an Opposition to the Motion to Dismiss
9 (“Opp.”) on April 12, 2017.
10

For the reasons discussed below, the court finds the Petition is time-barred.

11 It is therefore recommended that the Motion to Dismiss be granted.
12

II.

13

PROCEEDINGS

14

On January 17, 2012, a jury convicted petitioner of one count of second

15 degree murder (Cal. Penal Code § 187(a)), three counts of attempted murder (Cal.
16 Penal Code §§ 187(a)/664), three counts of assault with a firearm (two of which
17 were on a peace officer) (Cal. Penal Code §§ 245(b), 245(d)(2)), one count of
18 evading a police officer causing death (Cal. Veh. Code § 2800.3(b)), one count of
19 possession of a firearm by a felon (Cal. Penal Code § 12021(a)(1)), and two counts
20 of resisting executive officers (Cal. Penal Code § 69). See MTD at 1; Lodged
21
22
23
24

1

Dates listed as “constructive” filing dates reflect the constructive filing date
25 under the “mailbox rule.” Under the mailbox rule, “a legal document is deemed
26 filed on the date a petitioner delivers it to the prison authorities for filing by mail.”
Lott v. Mueller, 304 F.3d 918, 921 (9th Cir. 2002). Courts generally presume a
27 petition was delivered to prison authorities on the day the petition was signed.
28 Lewis v. Mitchell, 173 F. Supp. 2d 1057, 1058 n.1 (C.D. Cal. 2001).
2
Pet. App. G 20

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 3 of 17 Page ID #:2236

1 Document (“LD”) 1 at 1-3, 27-29.2 Petitioner had pleaded not guilty and not guilty
2 by reason of insanity. On February 6, 2012, the jury found petitioner was sane at
3 the time he committed the crimes. LD 1 at 16-26. The trial court sentenced
4 petitioner to a total of 123 years to life in prison. Id. at 27-29.
5

Petitioner, represented by counsel, appealed his conviction and sentence. See

6 LD 2. On December 17, 2013, the California Court of Appeal affirmed petitioner’s
7 conviction but found the trial court committed sentencing errors, and therefore
8 modified the sentence. LD 5. On June 6, 2014, the Court of Appeal recalled the
9 remittur and refiled its opinion. MTD at 2; see LD E.
10

Petitioner filed a petition for review in the California Supreme Court. LD 7.

11 The California Supreme Court summarily denied the petition for review on August
12 27, 2014. LD 8.
13

On November 24, 2015, petitioner constructively filed a habeas petition in

14 the Superior Court. LD 9. The Superior Court denied the habeas petition in an
15 order filed on January 4, 2016. LD 10.
16

Petitioner constructively filed a habeas petition in the California Court of

17 Appeal on March 14, 2016. LD 11. The California Court of Appeal summarily
18 denied the habeas petition on March 25, 2016. LD 12-13. Although the order
19 denying the petition states the petition was filed on March 2, 2016 – before even its
20 constructive filing date – that stated date was apparently a typographical error, as
21 the docket shows the petition was actually filed March 21, 2016 and denied four
22 days later. See LD 12-13.
23

On August 26, 2016, petitioner filed a habeas petition in the California

24 Supreme Court. LD 14. The California Supreme Court denied the habeas petition
25
2

The court references respondent’s lodged documents by number, as listed in
respondent’s Notice of Lodging. The court references petitioner’s lodged
27 documents by letter, as given by petitioner on the exhibit cover pages within his
28 Notice of Lodging.
26

3
Pet. App. G 21

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 4 of 17 Page ID #:2237

1 on November 22, 2016. LD 15.
2

Petitioner constructively filed the instant federal Petition on December 1,

3 2016.
4

III.

5

DISCUSSION

6 A.

The Petition Is Time-Barred Under AEDPA’s One-Year Statute of

7

Limitations

8

AEDPA mandates that a “1-year period of limitation shall apply to an

9 application for a writ of habeas corpus by a person in custody pursuant to the
10 judgment of a State court.” 28 U.S.C. § 2244(d)(1); see also Lawrence v. Florida,
11 549 U.S. 327, 329, 127 S. Ct. 1079, 166 L. Ed. 2d 924 (2007); Mardesich v. Cate,
12 668 F.3d 1164, 1171 (9th Cir. 2012). After the one-year limitation period expires,
13 the prisoner’s “ability to challenge the lawfulness of [his] incarceration is
14 permanently foreclosed.” Lott, 304 F.3d at 922.
15

To assess whether a petition is timely filed under AEDPA, it is essential to

16 determine when AEDPA’s limitation period starts and ends. By statute, AEDPA’s
17 limitation period begins to run from the latest of four possible events:
18

(A)

19

of direct review or the expiration of the time for seeking such review;

20

(B)

21

by State action in violation of the Constitution or laws of the United

22

States is removed, if the applicant was prevented from filing by such

23

State action;

24

(C)

25

recognized by the Supreme Court, if the right has been newly

26

recognized by the Supreme Court and made retroactively applicable to

27

cases on collateral review; or

the date on which the judgment became final by the conclusion
the date on which the impediment to filing an application created

the date on which the constitutional right asserted was initially

28
4
Pet. App. G 22

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 5 of 17 Page ID #:2238

1

(D)

the date on which the factual predicate of the claim or claims

2

presented could have been discovered through the exercise of due

3

diligence.

4 28 U.S.C. § 2244(d)(1). Ordinarily, the starting date of the limitation period is the
5 date on which the judgment becomes final after the conclusion of direct review or
6 the expiration of the time allotted for seeking direct review. See Wixom v.
7 Washington, 264 F.3d 894, 897 (9th Cir. 2001).
8

AEDPA may also allow for statutory tolling or equitable tolling. Jorss v.

9 Gomez, 311 F.3d 1189, 1192 (9th Cir. 2002). But “a court must first determine
10 whether a petition was untimely under the statute itself before it considers whether
11 equitable [or statutory] tolling should be applied.” Id.
12

Here, the California Supreme Court denied the petition for review on August

13 27, 2014. LD 8. There is no indication petitioner filed a petition for writ of
14 certiorari in the United States Supreme Court. Thus, petitioner’s conviction became
15 final on November 25, 2014, ninety days after the California Supreme Court denied
16 his petition for review. See Miranda v. Castro, 292 F.3d 1063, 1065 (9th Cir. 2002)
17 (stating that where petitioner does not file a petition for certiorari, his conviction
18 becomes final ninety days after the California Supreme Court denies review);
19 Bowen v. Roe, 188 F.3d 1157, 1159 (9th Cir. 1999) (same); see also U.S. Supreme
20 Court Rule 13.1.
21

As such, the applicable limitation period here expired on November 25, 2015.

22 Petitioner did not constructively file the instant Petition until December 1, 2016.
23 Consequently, the Petition is untimely by more than a year absent sufficient
24 statutory or equitable tolling.
25 B.

Petitioner Is Entitled to Statutory and Gap Tolling, But Not Enough to

26

Make the Instant Petition Timely

27

Statutory tolling is available under AEDPA during the time “a properly filed

28
5
Pet. App. G 23

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 6 of 17 Page ID #:2239

1 application for State post-conviction or other collateral review with respect to the
2 pertinent judgment or claim is pending.” 28 U.S.C. § 2244(d)(2); accord Evans v.
3 Chavis, 546 U.S. 189, 191, 126 S. Ct. 846, 163 L. Ed. 2d 684 (2006); Patterson v.
4 Stewart, 251 F.3d 1243, 1247 (9th Cir. 2001). But “in order to qualify for statutory
5 tolling during the time the petitioner is pursuing collateral review in the state courts,
6 the prisoner’s state habeas petition must be constructively filed before, not after, the
7 expiration of AEDPA’s one-year limitations period.” Johnson v. Lewis, 310 F.
8 Supp. 2d 1121, 1125 (C.D. Cal. 2004) (emphasis in original); see Laws v.
9 Lamarque, 351 F.3d 919, 922 (9th Cir. 2003) (where petitioner does not file his first
10 state petition until after the eligibility for filing a federal habeas petition has lapsed,
11 “statutory tolling cannot save his claim”). Tolling is also available between a lower
12 court’s denial of a post-conviction petition and the filing of a similar petition in a
13 higher court as long as the duration of the “gap” is reasonable or justified. See
14 Carey v. Saffold, 536 U.S. 214, 219-21, 122 S. Ct. 2134, 153 L. Ed. 2d 260 (2002);
15 Chavis, 546 U.S. at 191-92, 200-01.
16

1.

The First Two State Petitions and the Gap Between

17

Petitioner here constructively filed his first habeas petition in the Superior

18 Court on November 24, 2015. LD 9. Petitioner argues he handed the habeas
19 petition to prison officials on November 19, 2015. Opp. at 3, n.1. Although the
20 habeas petition was signed on November 19, 2015, the proof of service was signed
21 on November 24, 2015. See LD 9 at 21, 86. Given the proof of service and the
22 prison outgoing mail log, which shows a mailing on November 25, 2015, the court
23 finds petitioner constructively filed the habeas petition on November 24, 2015. See
24 LD M.
25

The Superior Court denied the habeas petition on January 4, 2016. LD 10.

26 Petitioner then constructively filed a habeas petition in the California Court of
27 Appeal on March 14, 2016, which was denied on March 25, 2016. LD 11-13.
28
6
Pet. App. G 24

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 7 of 17 Page ID #:2240

1

There is no dispute that by filing the first habeas petition one day before the

2 expiration of the AEDPA limitations period, petitioner was able to toll the statute of
3 limitations during the pendency of his habeas petition in the Superior Court.
4 Because petitioner filed the habeas petition in the Superior Court only one day
5 before the limitations period was due to expire, absent gap tolling, the limitations
6 period would have started running again with the Superior Court’s January 4, 2016
7 denial and expired the next day, on January 5, 2016. In that event, petitioner would
8 not be entitled to statutory tolling for any of his later petitions. See Laws, 351 F.3d
9 at 922; Johnson, 310 F. Supp. 2d at 1125. But with gap tolling – that is, continued
10 statutory tolling between the filing of the state habeas petitions – petitioner would
11 be entitled to continued tolling during the 70 days between the Superior Court’s
12 denial and his constructive filing of his second petition in the Court of Appeal, as
13 well as for the subsequent eleven days his second petition was pending in the Court
14 of Appeal. This would extend the limitations period to March 26, 2016.
15

Respondent argues petitioner is not entitled to gap tolling for the 70-day

16 period between the Superior Court’s denial and the filing of the habeas petition in
17 the Court of Appeal, because the gap is unreasonably large. Respondent points to
18 California’s 30-to-60-day benchmark for filing a habeas petition after a denial. See
19 Velasquez v. Kirkland, 639 F.3d 964, 968 (9th Cir. 2011). Because petitioner did
20 not file a habeas petition in the Court of Appeal until 70 days after the Superior
21 Court denied his habeas petition, respondent maintains petitioner is not entitled to
22 gap tolling, and the limitations period therefore expired on January 5, 2016.3 MTD
23 at 6-13.
24

The State of California does not statutorily specify time limits within which

25 an appeal of a post-conviction decision must be made; rather, such appeals are to
26
27

3

Although respondent asserts the limitation period ran on January 6, not
28 January 5, this appears to be an arithmetical error.
7
Pet. App. G 25

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 8 of 17 Page ID #:2241

1 be filed in “due diligence” within a “reasonable time,” with fact-based explanations
2 and justifications for any substantial delay. See Saffold, 536 U.S. at 235 (quoting In
3 re Harris, 5 Cal. 4th 813, 828 n.7, 21 Cal. Rptr. 2d 373, 855 P.2d 391 n.7 (1993));
4 In re Robbins, 18 Cal. 4th 770, 795 n.16, 77 Cal. Rptr. 2d 153, 959 P.2d 311
5 (1998). Although the United States Supreme Court has suggested that a delay that
6 exceeds 60 days would be out of the norm and require an explanation, the Court did
7 not impose a definition of what constitutes a “reasonable time,” but held that “the
8 federal court must decide whether the filing . . . was made within what California
9 would consider a ‘reasonable time.’” Chavis, 546 U.S. at 192, 198 (“[T]he Circuit
10 must itself examine the delay in each case and determine what the state courts
11 would have held in respect to timeliness.”). In other words, the “reasonable time”
12 determination for state habeas petitions in California is a fact-based assessment that
13 courts must engage in on a case-by-case basis. See id. at 198; Saffold, 536 U.S. at
14 235; see also In re Harris, 5 Cal. 4th at 828 n.7; In re Robbins, 18 Cal. 4th at 795
15 n.16.
16

Petitioner maintains the California Court of Appeal denied his second habeas

17 petition on the merits and therefore must have found it timely. Opp. at 4. But that
18 is not a fair conclusion. The Court of Appeal’s order merely states it “read and
19 considered” the petition, also examined the file on petitioner’s direct appeal, and
20 concluded “[t]he petition is denied.” LD 13. It gave no reasons for its denial, nor
21 did it state it found the petition timely. Even if the Court of Appeal’s statement that
22 it read and considered the petition is construed to mean it denied the petition on its
23 merits, that does not mean it was found timely. The Supreme Court has noted that a
24 “court will sometimes address the merits of a claim that it believes was presented in
25 an untimely way,” and so a decision on the merits does not by itself “indicate that
26 the petition was timely” so as to preclude a federal court from finding it untimely.
27 Saffold, 536 U.S. at 225-26; accord Chavis, 546 U.S. at 197; Velasquez, 639 F.3d at
28
8
Pet. App. G 26

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 9 of 17 Page ID #:2242

1 969. Consequently, the Court of Appeal’s order here settles nothing.
2

At the same time, the 70-day length of the gap here also is not by itself

3 dispositive of the issue. Although respondent cites the Ninth Circuit’s Stewart v.
4 Cate, 757 F.3d 929 (9th Cir. 2014), and Velasquez decisions as holding that
5 unjustified delays of more than 60 days preclude gap tolling (see MTD at 7-8),
6 neither case sets quite so firm a 60-day rule as respondent appears to be asserting.
7 Velasquez declares only that gaps that are “far longer than the [United States]
8 Supreme Court’s thirty-to-sixty-day benchmark for California’s ‘reasonable time’
9 requirement” (such as the gaps of 91 days and 80 days in that case) do not merit gap
10 tolling if no “adequate explanation” is offered for the delay. Velasquez, 639 F.3d at
11 968 (emphasis added). Stewart better supports respondent’s argument, as there, in
12 finding a 100-day gap untimely, the Ninth Circuit cited the body of case law
13 developed since Vasquez “generally accepting a 30-to-60-day delay as reasonable,
14 but also permitting delay beyond that length of time if the petitioner could establish
15 good cause for the delay.” Stewart, 757 F.3d at 936 (citation omitted).
16

Velasquez does not indicate whether a gap of 70 days is considered “far

17 longer” than the 30-to-60-day benchmark such that it requires an adequate
18 explanation for the delay, but several courts have found delays between 70 and 80
19 days require an adequate explanation. See Livermore v. Sandor, 487 Fed. Appx.
20 342, 343-44 (9th Cir. 2012) (76 days was not a reasonable delay); Johnson v.
21 Kaban-Miller, 2013 WL 6239373, at *4 (C.D. Cal. Dec. 3, 2013) (79 days is far
22 longer than the 30-to-60-day benchmark); Smith v. McDonald, 2012 WL 845275, at
23 *3 (C.D. Cal. Jan. 19, 2012) (finding 77-day gap was far longer than the 30-to-6024 day benchmark). Nor has the Ninth Circuit laid out the standards for determining
25 what factors justify a delay. See Burgoon v. Haviland, 2010 WL 2771914, at *5
26 (E.D. Cal. Jul. 13, 2010); Jordan v. Horel, 2009 WL 3712716, at *4 (C.D. Cal. Oct.
27 30, 2009). Here, assuming a 70-day delay requires an adequate explanation,
28
9
Pet. App. G 27

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 10 of 17 Page ID #:2243

1 petitioner has provided two purported justifications for the delay.
2

First, petitioner argues, it would be unfair to count all 70 days of the delay

3 because he was not aware of the Superior Court decision until January 12, 2016.
4 Opp. at 3-4. Petitioner contends the mail log reflects that the prison did not receive
5 the Superior Court decision until January 11, 2016, and prison officials did not
6 deliver the decision to petitioner until the following day. Opp. at 3-4, 7-9; see Ex.
7 M. There is no evidence to refute petitioner’s claim that he was unaware of the
8 Superior Court’s decision until January 12, 2016. But an eight-day delay in
9 notification is hardly unusual for a pro se prisoner litigant, and does not explain
10 why petitioner needed more than the 30-to-60-day norm. Cf. Saffold, 536 U.S. at
11 226 (finding 4-1/2-month filing gap may have been reasonable where the petitioner
12 “was not notified of the Court of Appeal’s decision for several months, and he filed
13 within days after receiving notification”). Even assuming lack of knowledge of the
14 Superior Court’s decision may constitute a reasonable justification for delay, it
15 would only account for eight days here. Petitioner still waited another 62 days
16 before filing his next petition. The eight days it took for petitioner to receive
17 notification does not provide adequate, or really any, explanation for the filing
18 delay.
19

Second, petitioner contends his lack of adequate access to the law library and

20 duplication services reasonable justified the delay. Opp. at 7-8. Petitioner contends
21 he filed a grievance concerning the lack of adequate access, which was at the Third
22 Level Review at the time he filed the Opposition, but failed to attach any evidence
23 that he was provided inadequate library access. Notwithstanding the lack of
24 evidence, petitioner does not argue that he was denied complete access to the law
25 library, only that he was denied “adequate” time. Id. at 8. Petitioner fails to explain
26 why the access he had was inadequate. See Fuschak v. Swarthout, 588 Fed. Appx.
27 556, 557 (9th Cir. 2014) (absent an explanation of why petitioner needed more than
28
10
Pet. App. G 28

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 11 of 17 Page ID #:2244

1 two hours of library access per week, petitioner was not entitled to gap tolling and
2 the petition was untimely); Blankenship v. Cate, 2010 WL 3733025, at *4 (S.D.
3 Cal. Jul. 2, 2010) (limited but available library access is not a sufficient justification
4 for gap tolling). Petitioner’s attempt to use lack of library access as an excuse is
5 particularly unconvincing here, where the habeas petition filed in the Court of
6 Appeal was substantially the same as the one filed in the Superior Court. Compare
7 LD 9 and 11. Petitioner did not require additional time to research new claims. Cf.
8 Maxwell v. Roe, 628 F.3d 486, 497 (9th Cir. 2010) (fourteen-month delay was
9 reasonable because of the need to review the voluminous record, research complex
10 claims, address the lengthy lower court decision, incorporate findings from the two11 year evidentiary hearing, and redraft the habeas petition). As such, petitioner does
12 not have an adequate explanation for the delay.
13

Nevertheless, whether a gap ten days longer than 60 days is “far longer” than

14 the 30-to-60-day benchmark such that it requires an adequate explanation for the
15 delay as contemplated by Velasquez is an open question. And while the petition
16 filed in the Court of Appeal is substantially the same as the petition filed in the
17 Superior Court, petitioner did revise one claim and discard another. Compare LD 9
18 at 13-31 with LD 11 at 13-14, 24-27. Although these changes were very modest
19 and could not have taken more than a few days, the court will give petitioner the
20 benefit of the doubt and find the second petition was filed within a reasonable time
21 after denial of the first.
22

The court therefore finds petitioner is entitled to tolling for the period

23 between the Superior Court’s decision and his constructive filing of the habeas
24 petition in the Court of Appeal. This, in turn, entitles him to statutory tolling while
25 his habeas petition was pending in the Court of Appeal, which extends the
26 limitations period to March 26, 2016. But absent additional statutory or equitable
27 tolling, the Petition is still untimely.
28
11
Pet. App. G 29

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 12 of 17 Page ID #:2245

1

2.

The Third State Petition and Preceding Gap

2

The Court of Appeal denied the second habeas petition on March 25, 2016,

3 and petitioner did not file his next habeas petition in the California Supreme Court
4 until August 26, 2016. LD 13-15. Although such a five-month gap between
5 petitions ordinarily would not qualify for gap tolling, petitioner argues the court
6 should find May 25, 2016 to be the constructive filing date of his California
7 Supreme Court habeas petition. Opp. at 9.
8

Petitioner contends he delivered his third habeas petition for mailing to the

9 California Supreme Court on May 25, 2016. Opp. at 5, 9. The prison’s outgoing
10 mail record reflects petitioner mailed something to the California Supreme Court on
11 May 26, 2016, and a letter from the California Supreme Court states it received a
12 habeas petition from petitioner on May 27, 2016, but was returning it due to a
13 missing page. LD M, O. Petitioner received the returned petition on June 2, 2016.
14 Opp. at 5; see LD M (incoming mail record). On July 24 or 25, 2016, petitioner, in
15 two separate envelopes, resubmitted the habeas petition along with a letter
16 explaining that the California Supreme Court erred when it returned his habeas
17 petition, as there in fact was no missing page. Opp. at 9; LD M; LD O; LD 14 at
18 691. Petitioner further explained in the letter that due to a riot on June 1, 2016, the
19 prison suspended law library access so petitioner was unable to access the proper
20 mailing material for petitioner to respond earlier. LD O. On August 10, 2016, one
21 of the envelopes was returned to petitioner. Opp. at 10; LD M; LD R. It was
22 opened, damaged, and marked “Return to Sender.” Opp. at 10. Petitioner did not
23 know why one envelope was returned and resent the entire habeas petition to the
24 California Supreme Court, along with a declaration to explain the circumstances.
25 LD R; see LD 14 at 692. The California Supreme Court deemed this mailing the
26 filing of the habeas petition, filing it on August 26, 2016. LD 14.
27

The documents submitted by petitioner support his contention that he

28
12
Pet. App. G 30

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 13 of 17 Page ID #:2246

1 submitted a complete habeas petition to prison officials to mail to the California
2 Supreme Court on May 25, 2016. Thus, although petitioner’s third state habeas
3 petition was not actually filed until August 26, 2016, this court finds petitioner
4 constructively filed the petition on May 25, 2016. This was 61 days after the
5 California Court of Appeal denied petitioner’s second habeas petition, and thus a
6 day outside the 30-to-60-day benchmark for gap tolling. Although petitioner offers
7 no additional reason for this delay, given that it is only one day past the benchmark,
8 the court will again give petitioner the benefit of the doubt and find petitioner filed
9 the third habeas petition within a reasonable time.
10

Accordingly, petitioner is entitled to additional statutory and gap tolling from

11 March 25, 2016 through November 22, 2016, when the California Supreme Court
12 denied his third petition. Adding this to the period discussed above gives petitioner
13 statutory tolling for the entire period of November 24, 2015, when he constructively
14 filed his first state habeas petition, to November 22, 2016, when the California
15 Supreme Court denied his third. But because petitioner filed his first habeas
16 petition in the Superior Court on the second to last day of the limitation period,
17 even with statutory tolling through November 22, 2016, the AEDPA limitation
18 period still expired on November 23, 2016. Consequently, even after giving
19 petitioner every benefit of the doubt with respect to statutory and gap tolling,
20 because petitioner did not constructively file the instant Petition until December 1,
21 2016, the Petition is still untimely by eight days, absent equitable tolling.
22 C.

Petitioner Is Not Entitled to Equitable Tolling

23

Petitioner argues he is entitled to equitable tolling because of extraordinary

24 circumstances beyond his control. Opp. at 10-11. The United States Supreme
25 Court has decided that “§ 2244(d) is subject to equitable tolling in appropriate
26 cases.” Holland v. Florida, 560 U.S. 631, 645, 130 S. Ct. 2549, 177 L. Ed. 2d 130
27 (2010). Tolling is appropriate when “extraordinary circumstances” beyond a
28
13
Pet. App. G 31

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 14 of 17 Page ID #:2247

1 petitioner’s control make it impossible to file a petition on time. Id. at 649; see
2 Miranda, 292 F.3d at 1066 (“[T]he threshold necessary to trigger equitable tolling
3 [under AEDPA] is very high, lest the exceptions swallow the rule.”) (citation
4 omitted and brackets in original). “When external forces, rather than a petitioner’s
5 lack of diligence, account for the failure to file a timely claim, equitable tolling of
6 the statute of limitations may be appropriate.” Miles v. Prunty, 187 F.3d 1104,
7 1107 (9th Cir. 1999).
8

A petitioner seeking equitable tolling must establish two elements: “(1) that

9 he has been pursuing his rights diligently, and (2) that some extraordinary
10 circumstance stood in his way.” Pace v. DiGuglielmo, 544 U.S. 408, 418, 125 S.
11 Ct. 1807, 161 L. Ed. 2d 669 (2005). Petitioner must also establish a “causal
12 connection” between the extraordinary circumstance and his failure to file a timely
13 petition. See Bryant v. Arizona Att’y Gen., 499 F.3d 1056, 1060 (9th Cir. 2007).
14

Petitioner does not expressly identify the extraordinary circumstances he

15 argues entitle him to equitable tolling, but indicates they are the circumstances
16 recounted throughout his Opposition. But most of those circumstances occurred
17 during the period in which the court has already found petitioner entitled to
18 statutory tolling, such as the mailing problems discussed above. Petitioner suggests
19 he is entitled to equitable tolling because he was in administrative segregation from
20 June 14, 2016 through sometime in November 2016. Opp. at 5. Petitioner contends
21 he was denied adequate law library access and duplication services during this time.
22 Setting aside the fact that petitioner does not provide evidence of his administrative
23 segregation, petitioner concedes that while it was limited, he had access to the law
24 library and duplication services. Petitioner was able to mail correspondence and
25 file habeas petitions during this period, as evidenced by his mailings to the
26 California Supreme Court. See LD M. Under equitable tolling law, petitioner’s
27 limited access to the law library access does not constitute an extraordinary
28
14
Pet. App. G 32

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 15 of 17 Page ID #:2248

1 circumstance warranting equitable tolling. See Ramirez v. Yates, 571 F.3d 993, 998
2 (9th Cir. 2009) (petitioner not entitled to equitable tolling simply because he
3 remained in administrative segregation and had limited access to law library and
4 copy machine). Further, this period of time too is when petitioner was already
5 receiving statutory tolling through November 22, 2016. There is no basis to also
6 grant him equitable tolling during this period, which in any effect would have no
7 effect.
8

The fundamental reason the instant Petition was filed late is not because it

9 took petitioner nine days after the California Supreme Court’s denial of his third
10 habeas petition for him to file his federal habeas Petition in this court. The Petition
11 was late because petitioner waited over a year following the California Supreme
12 Court’s denial of his petition for review on August 27, 2014 before he
13 constructively filed his first state habeas petition in the Superior Court on
14 November 24, 2015, the day before the AEDPA limitation period expired,
15 effectively leaving himself insufficient time to file a federal Petition after he
16 exhausted his state remedies. It is during that earlier time, while the AEDPA
17 limitation period was running, that petitioner needs equitable tolling in order for
18 instant Petition to be timely, but petitioner has failed to show an extraordinary
19 circumstances during that period prevented him from timely filing.
20

Petitioner claims his appellate counsel delayed more than six months before

21 informing him the Court of Appeal had ruled on his direct appeal on December 17,
22 2013. Opp at 2; see LD E. But this delay was before the AEDPA limitation period
23 began running on November 25, 2014, and thus not a basis for tolling.
24

Petitioner also asserts he has been diligently trying to obtain missing records.

25 Opp. at 1-2, 7. The records he mentions fall into two categories. The first are
26 records that were part of the record of his direct appeal, which petitioner requested
27 from his appellate counsel in 2012, and counsel indicated he would send them to
28
15
Pet. App. G 33

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 16 of 17 Page ID #:2249

1 petitioner after the direct appeal concluded. See LD B, C. Since petitioner’s efforts
2 with respect to these records apparently concluded once his direct appeal did, before
3 the AEDPA limitation period began running, they afford no basis to toll the
4 limitation period.
5

The second category are records petitioner believes should have been part of

6 the record on appeal, but were not, such as police reports, witness statements, and
7 medical reports. See LD C. Putting aside whether these in fact should have been
8 part of the record, petitioner requested these records and, in November 2012, his
9 appellate counsel told him he would need to request them from his trial counsel. Id.
10 Petitioner made the request to trial counsel on, according to petitioner, February 22,
11 2015, but petitioner states he never heard back from trial counsel. See LD D, F.
12 Petitioner requested the records from the District Attorney’s Office on the same
13 date. LD G. The District Attorney’s Office retrieved the records from archives in
14 March 2015, but would not send copies to petitioner unless he paid for the copies,
15 and he lacked the funds to do so. LD H, I, J. Petitioner twice requested a waiver of
16 the copy fees and was twice denied, on April 10 and May 5, 2015. LD I, J. Thus,
17 petitioner never obtained the records and filed his habeas petitions without them.
18

During the relevant period, then, petitioner tried to obtain the second

19 category of records over a period of less than three months, from February 22 to
20 May 5, 2015. Petitioner failed to act diligently in waiting until February 2015 to
21 request the records, as his appellate counsel told him he must in November 2012.
22 And petitioner’s efforts to obtain additional records beyond those in the appellate
23 record hardly constitute an extraordinary circumstance. Petitioner was told that he
24 must request the records, he did so over two years later, and he was promptly told
25 he could get them if he paid $30 in copying fees. Moreover, petitioner has made no
26 showing that this circumstance prevented him from filing the Petition in a timely
27 fashion. His efforts took less than three months and apparently ended in early May
28
16
Pet. App. G 34

Case 2:16-cv-09197-AG-SP Document 20 Filed 02/02/18 Page 17 of 17 Page ID #:2250

1 2015, yet petitioner waited another six months before he filed his first state habeas
2 petition. Petitioner was able to file all of his habeas petitions, including the instant
3 federal Petition, without the additional records he sought. As such, neither the lack
4 of these records nor the time petitioner spent trying to get them can be said to have
5 prevented petitioner from filing a timely Petition. There is simply no causal
6 connection that would warrant equitable tolling.
7

For these reasons, petitioner is not entitled to equitable tolling. Accordingly,

8 even after giving petitioner every benefit of the doubt with respect to statutory and
9 gap tolling, the Petition is still untimely. Respondent’s motion to dismiss should
10 therefore be granted.
11

IV.

12

RECOMMENDATION

13

IT IS THEREFORE RECOMMENDED that the District Court issue an

14 Order: (1) approving and accepting this Report and Recommendation; (2) granting
15 respondent’s Motion to Dismiss (docket no. 12); and (3) directing that Judgment be
16 entered denying the Petition and dismissing this action with prejudice.
17
18
19 DATED: February 2, 2018
20
21

SHERI PYM
United States Magistrate Judge

22
23
24
25
26
27
28
17
Pet. App. G 35

Case
2:16-cv-09197-AG-SP
Document
13-17 Filed 03/09/17 Page 1 of 1 Page
ID #:2112
Page
1 of 2
California
Courts - Appellate Court
Case Information

CALIFORNIA COURTS

Appellate Courts Case Information

THE JUDICIAL BRANCH OF CALIFORN[A

Supreme Court

!change court

E]

Court data last updated: 01/17/2017 04:44 PM
Docket (Register of Actions)

KELLER (KELLEY) ON H.C.
Case Number 5236837
Date

Notes

Description

08/26/2016

Petition for
writ of
habeas
corpus filed

11/22/2016

Petition for
writ of
habeas
corpus
denied

Petitioner: Kelley Keller
Pro Per
1 volume of lodged exhibits
with petition.

Click here to request automatic e-mail notifications about this case.

Careers I Contact Us I Accessibility I Public Access to Records I Terms of Use I Privacy © 2017
Judicial Council of California

Pet. App. H 36

http://appellatecases.courtinfo.ca.gov/search/case/dockets.cfm?dist=O&doc_id=2153037 &...

1/17/2017

